03/18/04          THU 11:31 FAX 423 241 3897               OIG                           -- + HQ               1002


DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy


 Memorandum
    DATE:           March 17, 2004                                   Audit Report No. OAS-L-04-1 1
    REPLY
   TO               IG-36 (A04DN003)
    ATTN OF:

    SUBJECT;        Audit of "Requests for Equitable Adjustment at the Rocky Flats Environmental
                    Technology Site"
            TO:     Frazer R. Lockhart, Manager, Rocky Flats Project Office

                    INTRODUCTION AND OBJECTIVE

                    Effective February 1, 2000, the Department of Energy's (Department) Rocky Flats
                    Project Office (RFPO) and Kaiser-Hill Co., LLC (Kaiser-Hill), entered into a cost-
                    plus-incentive-fee contract to close the Rocky Flats Environmental Technology Site
                    (Rocky Flats) by December 15, 2006. Under the contract terms, Kaiser-Hlill's final
                    incentive fee earned will be based on how well it meets established cost targets. For
                    example, Kaiser-Hill would earn a target fee of $340 million if final costs fall within
                    the target cost range of $3.96 billion to $4.16 billion. If costs fall below that target
                    cost, Kaiser-Hill's fee could increase to as much as $460 million. If costs increase due
                    to factors beyond its control, Kaiser-Hill can submit individual Requests for Equitable
                    Adjustment (REAs) for incorporation into the contract by modification. Each
                    approved REA increases the target cost and target fee. To date, the Department has
                    approved 10 REAs that have added approximately $10.2 million to target cost, and
                    several other REAs are pending.

                    During the audit, we learned that the Department's Office of Environmental
                    Management (EM) is considering an RFPO proposal to incentivize Kaiser-Hill to
                    further reduce costs. If adopted, Kaiser-Hill's maximum fee would increase up to
                    $560 million if it could significantly reduce costs below the current minimum cost
                    target of $3.56 billion. Also, the Department's proposal would automatically approve
                    approximately $40 million in pending REAs without fonnal modifications to the
                    contract. Kaiser-H-ill would be reimbursed for the REAs, but those costs would not be
                    added to target cost. Therefore, Kaiser-Hill would not have the opportunity to earn
                    incentive fees on those REAs. However, Kaiser-Hill would retain the right to submit
                    future REAs for costs incurred beyond its control. The new REAs would be
                    incorporated in the contract by modification, as is currently being done.
03/18/04   THU 11:31 FAX 423 241 3897                 OIG                            -- 4   HQ             ~003


             Due to the importance of the REA approval process in establishing Kaiser-Hill's final
             earned fee, the objective of this audit was to determine whether Kaiser-Hill's REAs
             were justifiable and supportable.

             CONCLUSIONS AND OBSERVATIONS

             The REAs submitted by Kaiser-Hill and approved by RFPO appear to be justifiable
             and supportable. However, we identified two concerns with RFPO's REA approval
             process that could result in the Department paying more than necessary. First, despite
             a Department of Energy Acquisition Regulation requirement for an external Federal
             audit agency to review any contract modification in excess of $1 million, such reviews
             were not performed on three approved REAs that exceeded that threshold. The
             combined cost of the three REAs totaled $9.7 million. Second, RFPO's current
             policies and procedures require internal RFPO reviews for each REA submitted.
             However, under the new proposal awaiting EM's approval, RFPO does not plan to
             perform an internal review on any of the pending REAs.

             In discussing these concerns with RFPO, we found that it either overlooked the
             requirements or felt that they were not necessary. Regarding the three REAs larger
             than $1 million, RFPO officials stated that they were initially unaware that such
             external audits should be conducted. However, RFPO stated that internal reviews are
             not necessary because the costs will be included in the annual cost-incurred audit
             conducted by the Defense Contract Audit Agency (DCAA). The purpose of an
             internal review, nevertheless, is not to establish the allowability of costs. Rather, it is
             intended to establish whether or not the costs were justified in relation to the contract.
             Further, internal reviews by RFPO are REA specific, while the DCAA audits
             encompass all costs incurred by Kaiser-Hill during the year. Past internal and external
             reviews have resulted in significant reductions to the amount of the REAs and
             accompanying fee savings to the Department. Thus, if the reviews are not performed,
             the Department risks paying more than necessary.

             SCOPE AND METHODOLOGY

             The audit was performed at Rocky Flats between December 2003 and February 2004.
             The audit examined the justification and support of those REAs that were submitted
             by K.aiser-Hill and approved by RFPO since inception of the contract.

             To accomplish the audit objective, we reviewed the REAs; the REA approval process;
             laws and regulations surrounding REAs; and discussed past, current, and new REA
             activities with EM, RFPO, and Kaiser-Hill personnel.

             The audit was performed in accordance with generally accepted Government auditing
            standards for performance audits and included tests of internal controls and
            compliance with laws and regulations to the extent necessary to satisfy the audit
            objective. Accordingly, we assessed internal controls and performance measures
            established under the Government Performanceand Results Act of 1993 related to




                                                  2
03/18/04   THU 11:32 FAX 423 241 3897               OIG                               -4-   HQ        01004


             REAs. Because our review was limited, it would not necessarily have disclosed all
             internal control deficiencies that may have existed at the time of our audit. We
             generally did not rely on computer-processed data to accomplish our audit objective.

              We discussed the results with RFPO personnel on February 18, 2004. Since no
             formal, recommendations are being made in this letter report, a formal response is not
             required. However, to assure that future costs are both allowable and justifiable, we
             suggest that RFPO ensure that internal and external reviews are performed prior to
             approving REAs.

             We appreciated the cooperation of your staff throughout the audit.




                                                    Ph4* lip   IHolbrook,   irector
                                                    Enviromnental Audits Division
                                                    Office of Inspector General



             cc: Assistant Secretary for Environmental Management
                 Team Leader, Audit Liaison. Team, ME-1.1
                 Audit Liaison, Rocky Flats Project Office




                                                3
03/18/04          THU 11:32 FAX 423 241 3897              OIG                           .-*-   HQ               [006



DOE F 1325.8
(08.93)
United States Government                                                            Department of Energy


memorandum
          DATE:     March 17,   2004

  REPLY TO
   ATTN OF:         IG-36 (A04DN003)

    SUBJECT:        Letter Report on Requests for Equitable Adjustment at the Rocky Flats Environmental
                    Technology Site

            TO:     Team Leader, Audit Liaison Team (ME- 1.1)


                   Attached is the subject report. Since no recommendations are being made, a Management
                   Decision is not required for this report. Therefore, it does not need to be tracked in the
                   Department's Audit Report Tracking System.

                   We appreciated your cooperation during the audit.




                                                                Phillip . Holbrook, Director
                                                                Environmental Audits Division
                                                                Office of Inspector General

                   Attachment

                   cc: Manager, Rocky Flats Project Office
03/18/04        THU 11:32 FAX 423 241 3897                 OIG                          4-*   HQ                   1005


DOE F 1:?5.8
(08-93)
United States Government                                                             Department of Energy


 memorandum
      DATE:       March 17,      2004

  REPLY TO
   ATTN OF:       IG-36 (A04DN003)

   SUBJECT:       Final Report Package for Letter Report on "Requests for Equitable Adjustment at Rocky
                  Flats Environmental Technology Site"

          TO:     Director, Planning and Administration

                  Attached is the required final report package on the subject audit. The pertinent details are:

                   1. Staff days:         Programmed       N/A   Actual    N/A

                  2. Elapsed days:        Programmed       92    Actual    97

                  3. Names of OIG audit staff:

                    Assistant Division Director: Fred Pieper
                    Team Leader: Mark Mickelscn
                    Auditor-in-Charge: Christine Nehls
                    Audit Staff: Destiny Halpin

                 4. Coordination with Investigations and Inspections: Inspections and Investigations
                    were notified on 3/4/04 of planned issuance of letter report. No actual or potential
                    compromise of an investigation or inspection was noted. This report will not impact
                    any ongoing investigations or inspections.

                  5. Matters to be brought to attention of the IG or AIGAS: None.



                                                 Philli/   . Holbrook, Director
                                                 Environmental Audits^Division
                                                 Office of Inspector General '

                  Attachments:
                   1.   Final Report
                  2.    Monetary Impact Report
                  3.    Audit Project Summary Report
                  4.    Transmittal Memorandum
03/18/04     THU 11:32 FAX 423 241 3897                         OIG                             -**      HQ
                                                                                                          O1@007



                               MONETARY IMPACT OF REPORT NO.: OAS-L-04-11


       1. Title of Audit:          Requests for Equitable Adjustment (REA.) at the Rocky Flats Environmental
                                   Technology Site

       2. Division:                 Environmental Audits Division

       3. Project No.:             A04DN003

       4. Type of Audit:

              Financial:     _Performance:                                               X
                 Financial Statement                                   Economy and Efficiency                  X
                 Financial Related             _                       Program Results
              Other (specify type):

       5.

                                                                                                            MOT.        POTENTIAL
                 FINDING                    COST                       QUESTIONED COSTS                   POSITION       BUDGET
                                         AVOIDANCE                                                                       IMPACT
       (A)            (B)               (C)      (0)         (E)          (F)       (0)        (I )          (-)            (.)
                      Title            One    Recurring   Questioned    Unsup-     Unrc.      Total       CConncur        Y=Yes
                                       Time    Amoutnt                  ported    solved   (E)+(F)+(G)    N=Nnncon        N=No
                                              Per Ycnr                                                     Ul-t__ndec
                                       $0     $0          $0           $l             SO   $0                N/A           Y



       TOTAI.S-ALL. FINDINGS   .       $0     $0          so                     so        $0

       6. Remarks:
             We identified two internal control weaknesses in the Rocky Flats Project Office's
             (RFPO) REA approval process, relating to external and internal reviews. First, despite a
             Department of Energy Acquisition Regulation. requirement for an external Federal audit
             agency to review any contract modification above $1 million, audits were not perfonned
             on three RFPO-approved REAs that exceeded that threshold and had combined costs of
             $8.9 million. Second, even though RFPO's current policies and procedures require
             internal RFPO reviews of the REAs, it does not plan to perform such reviews on the
            REAs identified for inclusion in a proposal to restructure Kaiser-Hill's incentive fee.
             Since past reviews have resulted in significant reductions to the amount of REAs with
            accompanying savings in fees paid to Kaiser-Hill, we suggested that RFPO ensure that
            internal and external reviews are performed, prior to approving REAs.


      7. Contractor:                                           10. Approvals:
      8. Contract No.:                                         Division DirectorfDate:                               <
                                                                                                                   -,//
      9. Task Order No.:                                       Technical Advisor & Date            __-




                                                                   1
    03/18/04             THU 11:33 FAX 423 241 3897                                  OIG                               4-*    HQ                 [009

                                               Audit           Project              Office    Summary          (APS)

                                                                                                                                              Page 1
Report     run on:                        March 18,     2004 10:22 AM


  Audit#: A04DN003                      Ofc:   DNA     Title:          REQUESTS FOR EQUITABLE ADJUSTMENT AT ROCKY FL

                                                                       **      Milestones        ****
                                                       Planned                End of Survey               Revised              Actual


   Entrance Conference:.....                         01-OCT-03                                          11-DEC-03            11-DEC-03

   Survey:..................                                                                            24-FEB-04            24-FEB-04
   Draft Report:.............
   Completed (With Report):.                         30-SEP-04                                          12-MAR-04            17-MAR-04   (R
   ------------                Elapsed Days;                  365                                              92                  97
                                                                                                              Elap. Less Suep:
   Date Suspended:                                                          Date Terminated;
   Date Reactivated:                                                         Date Cancelled:
  iDaysSuspended(Cur/Tot)                               (                  ) Report Number:             OAS-L-04-1
  Rpt Title:                                                                Report Type:                LTR   LETTER REPORT
   REQUESTS FOR EQUITABLE ADJUSTMENT AT THE ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE



                                                       ****         Audit Codes and:Personnel ****
   Class:               PER      PERFORMANCE
   Program:             WT       Not Found
   MgtChall:            103      PERFORMANCE MANAGEME
                                                                                              AD:       496    PIEPER
   Site:                MSA      MULTI-SITE AUDIT
                                                                                             AIC:       793    NEHLS
  SecMiss:              ENV      ENVIRONMENTAL QUALIT
                                                                                       Team Ldr:        342   MICKELSEN
                    ;
  PresInit                       Not Found                                             Tech Adv:        421    SCHULMAN

                                                            .****      Task Information. *****

          Task No:
          Task Order Dc:                                                    CO Tech. Rep:
          Orig Auth Hrs:                                                    Orig Auth Costs:
           Current Auth:                                                    Current Auth Cost:
           Tot Actl IPR Hr;                                                 Tot Actl Cost:


                                                                    ****    Time Charges       ****
                                p
                             EmI Cont Name              Niuays                 ..     Last Date
                               TERRY, R                              0.5             20-MAR-04
                               MICKELSEN, M                          8.9             06-MAR-04
                               HALPIN, D                            18.8             07-FEB-04
                               NEHLS, C                             51.1             06-MAR-04
                               Total:                               79.3
   03/18/04   THU 11:33 FAX 423 241 3897                       OIG                        44-   HQ                 010

                                 Audit         Project        Office    Summary   (APS)

                                                                                                              Page 2
Report run on:           March 18, 2004 10:22 AM

                                        *»**     Keywords .****


                 CONTRACT MODIFICATIONS
                 DEFENSE CONTRACT AUDIT AGENCY'
                 EXTERNAL REVIEWS
                 INCENTIVE FEE
                 INTERNAL REVIEWS
                 KAISER-HILL CO.,      LLC
                 MAXIMUM FEE
                 MINIMUM FEE
                 REQUEST FOR EQUITABLE ADJUSTMENT
                 ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE
                 ROCKY FLATS PROJECT OFFICE
                 TARGET COST
                 TARGET FEE


    oc                         ****    Location Information.****
    oe     Description

    RFA    ROCKY FLATS OFFICE
    RFA    KAISER-I-IILL COMPANY LLC
    RFA    ROCKY FLATS OFFICE
    RFA    KAISER-HILL COMPANY LLC
    RFC    ROCKY FLATS PLANT, ROCKY

                                      ****Finding Information ****         Bud .. t Dept             Dept
   Find#              Title                              Type Amount:   Yrs Imp   Pos Pos            Amount     Date
   03/18/04   THU 11:33 FAX 423 241 3897                 OIG                           H44
                                                                                       HQ        o011

                                Audit      Project      Office       Summary   (APS)
                                                                                             Page 3
Report run on:           March 18, 2004 10:22 AM


                                                Audit History.::'.

 Audit No:    A04DN003                      History Date:        18-MAR-04
 History Text:
  PB/   ENTERED COMPLTED WITH REPORT DATE.



                      ~ ~ ~~~ .........
                    ..~~~~~~~~~~~
                      ...        ...... ..........
                                  ...
03/18/04    THU 11:32 FAX 423 241 3897              OIG                          ---   HQ             0008


                               AUDIT DATABASE INFORMATION SHEET

       1. Project No.: A04DN003

       2. Title of Audit: Requests for Equitable Adjustment at Rocky Flats Environmental
          Technology Site

       3.   Report No./Date    OAS-L-04-11; March 17,      2004

      4. Management Challenge Area: Contract Administration

      5. Presidential Mgmt Initiative: Improved Financial Performance

      6. Secretary Priority/Tnitiative: Corporate Management

      7. Program Code: EM-2

      8. Location/Sites: Rocky Flats Environmental Technology Site, Golden, CO
                         Rocky Flats Project Office, Golden, CO

      9. Finding Summary:

               We found that the Requests for Equitable Adjustment (REAs) submitted by Kaiser-
               Hill Co., LLC (Kaiser-lHll) and approved by the Department of Energy's
               (Department) Rocky Flats Project Office (RFPO) appear to be justifiable and
               supportable. However, we identified two internal control weaknesses in the RFPO's
               REA approval process, relating to external and internal reviews. First, despite a
               Department of Energy Acquisition Regulation (DEAR) requirement for an external
               Federal. audit agency to review any contract modification in excess of-$1 million,
               audits were not performed on three RFPO-approved REAs that exceeded that
               threshold. Combined costs for the three REAs totaled $8.9 million. Second, even
               though RFPO's current policies and procedures require internal RFPO reviews of the
               1REAs, it does not plan to perform such reviews on the REAs identified for inclusion
               in a proposal to restructure Kaiser-Hill's incentive fee. Since past reviews have
               resulted in significant reductions to the amount of REAs with accompanying savings
               in fees paid to Kaiser-Hill, we suggested in a letter report that RFPO ensure that
               internal and external reviews are performed, prior to approving REAs.

      10. Keywords: Rocky Flats Environmental Technology Site
                    Rocky Flats Project Office
                    Kaiser-Hill Co., LLC
                    Requests for Equitable Adjustment
                    Internal Reviews
                    External Reviews
                    Contract Modifications
                    Defense Contract Audit Agency
                    Incentive Fee
                    Target Cost
                    Target Fee
                    Minimum Fee
                    Maximum Fee
